No.

3ta®fje

Supreme Court of tJje fHnitetr States;

SARA DISCEPOLO
PETITIONER,
v.
UNITED STATES DEPARTMENT OF JUSTICE,
RESPONDENT
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the District of Columbia
PETITION FOR WRIT OF CERTIORARI
PROOF OF SERVICE
I, Sara Discepolo, hereby declare as follows:
1. I am the Petitioner and I am proceeding pro se.

2. All of the statements made in this Proof of Service are
based upon my personal knowledge.
3. On July 11, 2020 I caused to be sent by U.S. mail, postage
prepaid, one copy of the following documents: Petition for
Writ of Certiorari, Appendix, Certificate of Compliance
and this Proof of Service upon each of the following:
Assist. U.S. Attorney Marsha
Yee
Civil Division
U.S. Attorneys’ Office for the
District of Columbia
555 Fourth St. NW
Washington DC 20530

Solicitor General of
the United States
Room 5616
Department of Justice
950 Pennsylvania Ave,
NW
Washington D.C. 20530

In the mailing, I requested these recipients agree to
service via electronic means in place of 3 paper copies.
Pursuant to 28 U.S.C. § 1746,1 declare under penalty of
perjury that the foregoing is true and correct.
Executed on this 11th day of July, 2020.

Sara Discepolo
6999-2 Merrill Rd # 156
Jacksonville FL 32277
Tel (904) 625-1803

2

